<html>
<title> - STATUS OF THE 2010 CENSUS OPERATIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
                  STATUS OF THE 2010 CENSUS OPERATIONS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 5, 2009

                               __________

                            Serial No. 111-4

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
50-732                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              TODD RUSSELL PLATTS, Pennsylvania
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                LYNN A. WESTMORELAND, Georgia
GERRY E. CONNOLLY, Virginia          PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   BRIAN P. BILBRAY, California
    Columbia                         JIM JORDAN, Ohio
PATRICK J. KENNEDY, Rhode Island     JEFF FLAKE, Arizona
DANNY K. DAVIS, Illinois             JEFF FORTENBERRY, Nebraska
CHRIS VAN HOLLEN, Maryland           JASON CHAFFETZ, Utah
HENRY CUELLAR, Texas                 AARON SCHOCK, Illinois
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------
------ ------
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
PAUL E. KANJORSKI, Pennsylvania      MICHAEL R. TURNER, Ohio
CAROLYN B. MALONEY, New York         PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   LYNN WESTMORELAND, Georgia
    Columbia                         JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             JASON CHAFFETZ, Utah
STEVE DRIEHAUS, Ohio
DIANE E. WATSON, California
                     Darryl Piggee, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 5, 2009....................................     1
Statement of:
    Mesenbourg, Thomas, Acting Director, U.S. Census Bureau; 
      Robert Goldenkoff, Director, Strategic Issues, U.S. 
      Government Accountability Office; David A. Powner, 
      Director, Information Technology, U.S. Government 
      Accountability Office; and Glenn S. Himes, Ph.D., executive 
      director, civilian agencies, Center for Enterprise 
      Modernization, the Mitre Corp..............................    20
        Goldenkoff, Robert.......................................    26
        Himes, Glenn S...........................................    60
        Mesenbourg, Thomas.......................................    20
        Powner, David A..........................................    48
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     3
    Goldenkoff, Robert, Director, Strategic Issues, U.S. 
      Government Accountability Office, prepared statement of....    28
    Himes, Glenn S., Ph.D., executive director, civilian 
      agencies, Center for Enterprise Modernization, the Mitre 
      Corp., prepared statement of...............................    62
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    18
    McHenry, Hon. Patrick T., a Representative in Congress from 
      the State of North Carolina, prepared statement of.........     9
    Mesenbourg, Thomas, Acting Director, U.S. Census Bureau, 
      prepared statement of......................................    23
    Powner, David A., Director, Information Technology, U.S. 
      Government Accountability Office, prepared statement of....    49
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................    13
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    91


                  STATUS OF THE 2010 CENSUS OPERATIONS

                              ----------                              


                        THURSDAY, MARCH 5, 2009

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Wm. Lacy Clay 
(chairman of the subcommittee) presiding.
    Present: Representatives Clay, McHenry, Maloney, Norton, 
Driehaus, Towns, Westmoreland, Chaffetz, and Issa.
    Staff present: Darryl Piggee, staff director/counsel; Jean 
Gosa, clerk; Michelle Mitchell and Alissa Bonner, professional 
staff members; Charisma Williams, staff assistant; Leneal 
Scott, information systems manager; Lawrence Brady, minority 
staff director; John Cuaderes, minority deputy staff director; 
Jennifer Safavian, minority chief counsel for oversight and 
investigations; Dan Blankenburg, minority director of outreach 
and senior advisor; Adam Fromm, minority chief clerk and Member 
liaison; Kurt Bardella, minority press secretary; Chapin Fay, 
minority counsel; and Dr. Christopher Bright, minority senior 
professional staff member.
    Mr. Clay. The Information Policy, Census, and National 
Archives Subcommittee of the Oversight and Government Reform 
Committee will come to order.
    Good morning and welcome to today's hearing. We will 
receive a progress report from the Bureau on its preparations 
for the 2010 census. We will also examine recommendations made 
by GAO for improvements needed to address the Bureau's 
operational challenges and discuss GAO's most recent report on 
the Bureau's overall readiness for conducting the decennial 
census.
    Without objection, the Chair and ranking minority member 
will have 5 minutes to make opening statements, followed by 
opening statements not to exceed 3 minutes by any other Member 
who seeks recognition.
    We will also recognize each side after the opening 
statements for 10 minutes each, in agreement with both sides.
    Without objection, Members and witnesses may have 5 
legislative days to submit a written statement or extraneous 
materials for the record.
    I will open with my statement and recognize our esteemed 
colleague, Mr. McHenry, for his opening statement.
    We are at a critical stage of preparation for next year's 
decennial census. This will be the Bureau's largest and most 
expensive census operation, costing taxpayers over $14 billion. 
The Bureau must use all of these resources to ensure an 
accurate, fair, and complete count on April 1, 2010.
    As chairman, my mission is to help the Bureau to conduct 
the most accurate census in U.S. history.
    Last time, in 2000, the census missed 3 million Americans 
and 1.4 million homes. Most of those that were missed were 
poor, many were minorities, and the majority were from urban 
areas; and that is just not good enough.
    My standard is very simple: everyone counts and every 
person must be counted.
    The undercount is extremely damaging to States and local 
communities. It deprives them of proper political 
representation, Federal formula dollars, and vital information. 
For every person the Bureau misses, their local community will 
lose thousands of dollars of Federal funding for 10 years. And 
given the economic emergency we all face, no city or State can 
afford to miss anyone.
    The Bureau has less than 1 month to complete preparations 
for address canvassing. This essential operation will ensure 
the accuracy of its master address list automation, and it will 
play a critical role in the success of the 2010 census.
    For the first time, addresses will be collected and 
verified using handheld computers. Today we will focus on the 
Bureau's progress toward strengthening its integrated IT 
systems and how they can reduce any risks that would jeopardize 
an accurate enumeration.
    I want to thank all of our witnesses for appearing here 
today, and I look forward to their testimony.
    We will also be joined today by our chairman on the 
Oversight Committee, Mr. Towns or New York, and the ranking 
member of the full committee, Mr. Issa of California. Thank you 
both for joining us.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T0732.001
    
    [GRAPHIC] [TIFF OMITTED] T0732.002
    
    [GRAPHIC] [TIFF OMITTED] T0732.003
    
    [GRAPHIC] [TIFF OMITTED] T0732.004
    
    Mr. Clay. I will now yield to the distinguished ranking 
minority member, Mr. McHenry of North Carolina, for a 5-minute 
opening statement. Thank you.
    Mr. McHenry. Thank you, Mr. Chairman. I want to 
congratulate you on attaining the chairmanship. It is certainly 
historic for Congress and historic for your family, because 
your father had the same jurisdiction during his chairmanship, 
and I know that he is certainly proud of the legacy.
    Mr. Clay. Stop making me blush. Thank you.
    Mr. McHenry. But it is an historic moment and I certainly 
appreciate it. I want to work in a bipartisan way with you to 
ensure all the things that you said in your opening statement, 
I concur, and I do have this hope that we can work in a 
bipartisan basis to ensure that all Americans are counted. I 
have the same concerns as Chairman Clay about the undercount. I 
am looking forward to hear the Bureau explain their procedures 
for the undercount and the overcount.
    Back in 2008, the full Oversight and Government Reform 
Committee met to discuss the challenges and funding problems 
facing the Census Bureau, and identify ways to facilitate a 
full and accurate count in 2010.
    Today, almost a year later, we have the opportunity to ask 
the Bureau exactly where they are in their preparations for the 
decennial census; where it should be; and how, with Congress's 
help, it can get there.
    The decennial census is a huge undertaking, the largest 
peacetime mobilization this country has ever seen. The data 
that are collected affect how government and businesses 
allocate the resources from the State level all the way down to 
the small towns and communities in my district, in Chairman 
Clay's district, and all across America. Therefore, it is 
important that the Bureau be as open and honest as possible 
about their preparation for a full count in 2010 and any 
associated problems that they might incur.
    I think I speak for both myself and the chairman when I say 
this subcommittee will not point fingers if problems exist--
they always will with such a massive undertaking--and we will 
certainly work with you to change existing plans, and we will 
work with you early and often to make that happen. This 
includes letting us know about any funding needs that may come 
up along the way. The Bureau recently received $1 billion in 
the stimulus and another $2.7 billion is currently in the 2009 
omnibus before the Senate today, as well as appropriations for 
2010.
    Congress has demonstrated its intent to ensure the Census 
Bureau has every resource it needs to conduct a full and 
accurate count. With a sufficiently funded Census Bureau, we 
can ensure a fair and thorough 2010 census that counts everyone 
and leaves no justification for using any accounting methods.
    Finally, I would like to stress the importance of 
protecting the integrity of the census without manipulation 
from either party. I know that is rare to hear in Congress.
    As was reported today, yesterday, in a meeting with the 
Senate Commerce Committee leaders, Commerce Secretary Designee 
Gary Locke expressed his desire for a Census Bureau free of 
political pressure from the White House. I am encouraged by his 
comments and hope that President Obama accepts the Governor's 
wishes, and restores control of the Census Bureau to the 
Department of Commerce. Following that, the next census 
director, who the President has yet to appoint and name, must 
also state his opinion on a non-partisan and accurate census.
    Based on new reports, Governor Locke did express his 
intention to employ statistical sampling as a ``accuracy 
check.'' I am certain that during the Governor's confirmation 
hearings he will clarify what exactly that means. And what it 
must not mean is that sampling will be used in any way to 
manipulate the census data for partisan gain.
    Chairman Clay and I share this goal to ensure that every 
American, every individual in this country, regardless of any 
race or socioeconomic status or any locational issues or 
challenges, or any other characteristic, is not counted. We 
want to make sure every American is counted.
    All ideas brought before this subcommittee to help us 
achieve this goal will be given thorough consideration, and I 
am confident that together we can formulate a plan to ensure a 
full and accurate count in 2010.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Patrick T. McHenry 
follows:]

[GRAPHIC] [TIFF OMITTED] T0732.005

[GRAPHIC] [TIFF OMITTED] T0732.006

[GRAPHIC] [TIFF OMITTED] T0732.007

    Mr. Clay. Thank you, Mr. McHenry. I look forward to our 
endeavors together. Thank you.
    Now I recognize the chairman of the Oversight and 
Government Reform Committee, the gentleman from New York, Mr. 
Towns. Welcome to the subcommittee.
    Chairman Towns. Thank you very much. Let me thank you and, 
of course, the ranking member, Mr. McHenry, and, of course, the 
ranking member of the full committee, Congressman Issa.
    This is a very, very important subject, and, of course, the 
census is a top priority for the committee, and I will be 
following it very, very closely and will be willing to work 
with you to make certain that we are getting a fair and 
accurate count.
    There is no question that the census is a sensitive issue 
from a political point of view, because it has a direct impact 
on how seats are apportioned among the States for this body and 
the House of Representatives. But my goal is for the committee 
to carry out its oversight work in a responsible, non-partisan 
manner. I hope we can keep our focus on the management 
practices and making certain that they have enough staff to do 
the job that needs to be done; and let's not get caught up in 
the political stuff that really does not help us to be able to 
come up with an accurate count.
    Of course, I look forward to working with you, Chairman 
Clay, Mr. McHenry, and, of course, the members of the 
committee, as well as the ranking member in the full committee, 
to make certain that this time we get it right. I do believe 
that we can get it right, but it is going to require all of us 
focusing on accurate counting rather than the politics of the 
situation.
    So thank you very much, Mr. Chairman, and I yield back on 
that note.
    [The prepared statement of Hon. Edolphus Towns follows:]

    [GRAPHIC] [TIFF OMITTED] T0732.008
    
    [GRAPHIC] [TIFF OMITTED] T0732.009
    
    Mr. Clay. Thank you very much, Mr. Chair.
    I now recognize the gentleman from California, Mr. Issa.
    Mr. Issa. Thank you, Chairman Clay.
    Since 1790, America has endeavored to count accurately all 
the persons in the United States. It is certainly, today, not 
as automated as we would like in this coming census, but we 
have tools we didn't have in 1790. We don't have to go up river 
and check and see who heard that there was a trapper somewhere 
beyond the last station that anyone knew existed. So in many 
ways we will have a more accurate count than we did at our 
founding.
    It is a given, though, that we will not have a perfect 
count. But since estimates begin after the account, it is 
critical that we have an actual count from which so many 
estimates are made of other materials. That is the goal of this 
committee. I can see that it is the goal of this committee on a 
bipartisan basis.
    And the chairman of the full committee, as well--talked 
about the importance of an accurate count and of the census in 
general, I think he did so for a reason that many people today, 
at this hearing, may not yet understand, and that is that we 
have the shortest Constitution in the world and, yet, it 
includes the requirement to count every 10 years every person 
in the United States. Not every citizen; not every voter. Every 
person. For that reason, it is something that has been non-
partisan since our founding, and I am sure will remain so.
    Today, I look forward to hearing from our witnesses how we 
may strive to be more efficient, if possible, but more 
effective than ever before in that endeavor, because I am sure 
that the man or woman up the river in 1790 didn't get counted 
for reasons of difficulty in getting to that count, and I am 
sure there will be people like that in this decade. But I would 
like to hear how we can reduce to the absolute minimum any 
undercount or error in counting.
    With that, Mr. Chairman, I thank you and yield back.
    Mr. Clay. I thank the gentleman from California and I 
appreciate your comments and your historic perspective on the 
census.
    I now would like to recognize our colleague from Ohio, Mr. 
Driehaus, for an opening statement.
    Mr. Driehaus. Thank you, Mr. Chairman, and thank you very 
much for calling this hearing this morning.
    As has already been stated by the Members, it is critically 
important that we get the count right when it comes to the 
census. I happen to represent, Mr. Chairman, the city of 
Cincinnati in my congressional district, and the city of 
Cincinnati led the charge in challenging the count in the last 
census because we had so many people, especially in low income 
and minority communities in Cincinnati, that were not counted. 
Obviously, this is an issue that is near and dear to our mayor, 
Mark Mallory, who has led the charge on behalf of the mayors of 
cities across the country to make sure that we are in fact 
ensuring an accurate count of all people, as has been mentioned 
by Mr. Issa.
    So I fully support the efforts of the committee, and I 
would like to invite you, Mr. Chairman, and the committee, if 
you are considering field hearings on the topic, to come on out 
to Southwest Ohio and Cincinnati. I am sure our mayor would 
greet us with open arms, and we certainly want to make sure, in 
Cincinnati, that we have a fair count.
    So I thank you and I look forward to the testimony today.
    Mr. Clay. I thank the gentleman for the invitation. Your 
mayor is a wonderful leader of that community and we look 
forward to the visit.
    I want to recognize the gentleman from Utah, Mr. Chaffetz.
    Mr. Chaffetz. Thank you. I simply want to echo the 
sentiments of the chairman and of the ranking member, the idea 
and the notion that we have a fair and accurate count. I also 
just want to express--and I hope it can be carried back to the 
men and women who will be the foot soldiers, if you will, who 
will be out there participating in this census.
    I hope they understand the important duty they take on, but 
also the thanks from their Government. It is going to be tough, 
difficult work over a long period of time, but there is a great 
deal of appreciation for the men and women who will serve and 
spend their time, effort, and talents in order to execute this 
census in a fair manner. Just please know that this committee, 
this body of the U.S. Congress, appreciates their service, to 
all those who are serving this country for this very important 
endeavor.
    With that, I yield back the balance of my time. Thank you.
    Mr. Clay. I thank the gentleman from Utah for his opening 
statement. I know they have a stake in this upcoming census.
    Mr. Chaffetz. I am just glad to be counted on this panel, 
Mr. Chairman. [Laughter.]
    Mr. Clay. I recognize the gentlewoman from New York, Mrs. 
Maloney.
    Mrs. Maloney. Thank you so much, Chairman Clay, for calling 
this hearing. And thank you also to Chairman Towns for 
attending, as well as Ranking Members Issa and McHenry. Thank 
you so much for being here on this important issue.
    Well, it must be the year before the decennial, since the 
census is so much in the news. As Yogi Berra used to say, 
``it's deja vu all over again.'' This is just like it was in 
1999. We have press conferences, press releases, charges, 
countercharges, accusations. So the census must be next year.
    Today we have a hearing to see how the census is doing in 
getting ready for 2010. But this hearing is where the 
similarities to 2000 end. The controversies of the 2000 census 
were over the attempts by the scientists at the Census Bureau 
to use methods to improve a more accurate count. These were 
ideological differences over how to accomplish that goal.
    Today we have a census that has real operational problems, 
a census that is facing many last minute operational changes 
that have not gone through field testing to the extent that 
operational issues were field-tested in 2000. We are not 
anywhere near the level of attention and testing that took 
place in 2000.
    Let's just look at one area: the fingerprinting operation. 
This was added just last summer by the Bush administration. 
Hundreds of thousands of applicants that census will want to 
hire will have to be fingerprinted. The images run through the 
Justice Department's computers and then the results returned to 
the field offices next year. None of this operation has been 
field-tested anywhere close to the type of testing that was 
done prior to 2000 for similar operations. What if it fails or 
slows the hiring process? This would really hurt the operations 
of the census.
    Or let us look at the proposed second mailing of census 
forms. Here you have an operation that was looked at in 2000, 
and rejected in 2000, that has been added to 2010 without a 
clear explanation as to how the problems that led to its 
rejection in 2000 would be dealt with.
    Or how the management systems that handle payroll and the 
enumerators work, since we have had to revert to a paper 
census, after going to a handheld seemed unworkable after 
spending millions of dollars.
    None of them have been given testing anywhere close to what 
was done in 2000.
    Hopefully, we will hear good news today. But I suspect that 
we will not hear enough that will convince us that there is not 
real operational problems in the Census Bureau.
    Mr. Chairman, as we look at the 2010 census in the coming 
months, I hope that you and the committee will also take the 
time to start looking at 2020--something I know that the 
Government Accountability Office is already doing--as to how we 
can avoid this type of situation in the future. As you know, I, 
along with Chairman Dent and Charlie Gonzalez and many others, 
have put forth bipartisan legislation to make the Census Bureau 
an independent agency, to allow it to work over the next 10-
year cycle of the census without interference, without changing 
guidelines, without having its budget diminished and changed 
and moved around. I hope that the committee will be able to 
look at that in the coming months as we deal with the problems 
we will be facing in 2010.
    Thank you very much, and I thank all the panelists for 
being here and all my colleagues.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T0732.010

[GRAPHIC] [TIFF OMITTED] T0732.011

    Mr. Clay. I thank the gentlewoman for her opening statement 
and realize that the census is a work in progress, and we have 
to continue to attempt to perfect it. So I thank you and look 
forward to working with you.
    If there are no additional opening statements, the 
subcommittee will now receive testimony from the witnesses 
before us today.
    I want to start by introducing our panel. We have with us 
Mr. Thomas Mesenbourg, the Acting Director of the U.S. Census 
Bureau. Welcome.
    Mr. Robert Goldenkoff, Director of Strategic Issues at the 
GAO. Thank you for being here. Mr. Goldenkoff's 
responsibilities include directing work on the 2010 census.
    He is accompanied by Mr. David Powner, Director of 
Information Technology Management Issues. Good to see you 
again, Mr. Powner.
    And last, but certainly not least, Mr. Glenn Himes, who is 
executive director of the Center for Enterprise Modernization 
at the MITRE Corp.
    I want to welcome all of you all to our hearing today.
    It is the policy of the Oversight and Government Reform 
Committee to swear in all witnesses before they testify. Would 
all of you please stand and raise your right hands?
    [Witnesses sworn.]
    Mr. Clay. Thank you. Let the record reflect that all of the 
witnesses answered in the affirmative.
    Each of you will have 5 minutes to make an opening 
statement. Your complete written testimony will be included in 
the hearing record. The yellow light will indicate it is time 
to sum up; the red light will indicate your time has expired.
    Mr. Mesenbourg, you may proceed with your opening 
statement.

 STATEMENTS OF THOMAS MESENBOURG, ACTING DIRECTOR, U.S. CENSUS 
  BUREAU; ROBERT GOLDENKOFF, DIRECTOR, STRATEGIC ISSUES, U.S. 
 GOVERNMENT ACCOUNTABILITY OFFICE; DAVID A. POWNER, DIRECTOR, 
INFORMATION TECHNOLOGY, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; 
    AND GLENN S. HIMES, PH.D., EXECUTIVE DIRECTOR, CIVILIAN 
 AGENCIES, CENTER FOR ENTERPRISE MODERNIZATION, THE MITRE CORP.

                 STATEMENT OF THOMAS MESENBOURG

    Mr. Mesenbourg. Chairman Clay, Chairman Towns, Ranking 
Member McHenry and Issa, and members of the subcommittee, I 
appreciate the opportunity to report on the Census Bureau's 
preparations for the 2010 census. The census is upon us. April 
1, 2010 is only 392 days from today and I can report we are 
well on our way toward a successful enumeration.
    A complete and accurate address list is the cornerstone of 
a successful census. Throughout the decade, we regularly 
updated the address list we used in census 2000. In 2007, we 
invited tribal, State, and local governments to review our 
address list for accuracy and completeness as part of the Local 
Update of Census Address Programs [LUCA]. 11,500 government 
entities registered for LUCA, and over 8,100 provided updates. 
That accounted for an additional 8 million addresses that we 
have added to our address list.
    Address canvassing, the first major operation in the 2010 
census, starts on March 30th and runs through July 17, 2009. 
During address canvassing, 140,000 Census Bureau employees will 
walk almost every street in America, checking and updating 145 
million addresses. Then, in late September, we will validate 
the listings for group quarters, which include dormitories, 
group homes, prisons, and the like. This is the first time that 
group quarters are part of address canvassing, and their 
inclusion will improve the accuracy and the coverage of the 
final count.
    In December 2008, we conducted the address canvassing 
operational field test. The test provided an opportunity for 
our field staff to test the key functionality of the handheld 
computers in an environment that approximates a real census. 
Headquarters staff and all of our 12 regional directors 
participated in the test. The Government Accountability Office 
and the Commerce Department's Inspector General staff observed 
the test. The positive results demonstrated the significant 
improvement that we have made since dress rehearsal and 
reinforced our confidence in the operation's production 
readiness.
    In April 2008, the Secretary announced the decision not to 
use handhelds to collect data during the nonresponse followup 
operation. Late last spring, we completed the high level plan 
for enumerators to use paper forms to collect information from 
non-respondents, just as we have done in previous censuses.
    In October 2008, we re-scoped the field data collection 
automation contract responsibilities. The Census Bureau took 
over responsibility for a number of operations, including the 
help desk and the operational control system, which is the 
nerve center for our 494 local census offices that will be 
responsible for 2010 data collection operations. We made these 
re-scoping decisions to reduce the overall risk to the census. 
We have done these operations before and we are confident in 
our ability to do them again.
    At the end of January 2009, we completed the schedule for 
development, testing, and deployment of the 2010 operational 
control system that will support 2010 data collection 
activities, including nonresponse followup. We are making good 
progress on system development and testing is scheduled to 
begin April 20, 2009. We will also continue to closely monitor 
the development and testing of the paper-based operations 
themselves.
    We agree with GAO for the need of a comprehensive testing 
program. We believe, over the past 11 months, we have 
established a very robust testing program that is responsive to 
the recent GAO testing recommendations. GAO made nine 
recommendations outlining 28 steps that should be taken to 
strengthen our testing program. We have already implemented 16 
of the steps they specified, and 8 others are planned to be 
implemented. Of the remaining four steps, two of the steps take 
place later in the cycle and we will implement them at the 
appropriate time, and an additional step we are going to seek 
clarification from GAO about their intent on those.
    We are also taking steps to address GAO's concerns related 
to cost estimates. We appreciate GAO's recommendations and we 
recently provided them with an action plan, and we certainly 
are committed to implementing those steps outlined in that 
plan.
    In closing, I believe that our current plan has 
significantly reduced the risk to the 2010 census, and we are 
prepared to meet the challenges that lie ahead. Members of the 
subcommittee, the Census Bureau is on track for a successful 
census, and I am happy to take your questions.
    [The prepared statement of Mr. Mesenbourg follows:]

    [GRAPHIC] [TIFF OMITTED] T0732.012
    
    [GRAPHIC] [TIFF OMITTED] T0732.013
    
    [GRAPHIC] [TIFF OMITTED] T0732.014
    
    Mr. Clay. Thank you for your testimony, Mr. Mesenbourg.
    Mr. Goldenkoff, you may proceed for 5 minutes.

                 STATEMENT OF ROBERT GOLDENKOFF

    Mr. Goldenkoff. Chairman Clay, Chairman Towns, Ranking 
Members McHenry and Issa, and members of the subcommittee, 
thank you for the opportunity to be here today to provide a 
progress report on the 2010 census. I am here with Dave Powner, 
a Director in GAO's Information Technology team.
    As requested, in our remarks today, I will provide a broad 
overview of the status of key census-taking operations and Dave 
will focus on the finding and recommendations contained in our 
report on IT testing, which we are releasing today.
    This morning's hearing is particularly timely. Exactly 1 
year ago today, GAO designated the 2010 census a high risk area 
for three reasons. First, there were weaknesses in the Census 
Bureau's IT acquisition and contract management function; 
second, there were problems with the performance of handheld 
computers used to collect data; and, third, the ultimate cost 
of the census is uncertain, although it is currently estimated 
at more than $14 billion.
    At the same time, just over 1 year from now, it will be 
census day. Little time remains to address the challenges that 
have emerged thus far and make final preparations for the 
numerous operations that will take place throughout 2010. The 
poster board to my right, which is a timeline of key census-
taking activities, shows some of the work that lies ahead and 
the need to stay on schedule in order to keep the census on 
track. Because of legally mandated deadlines, the Bureau can't 
call a timeout or press a reset button.
    In short, today's hearing is a convenient weigh station on 
the road to census day, a time to look back on the Census 
Bureau's efforts over the past year to address the operational 
challenges that have emerged thus far, as well as to look ahead 
to what the Bureau needs to do in the coming months to help 
ensure a successful headcount.
    Importantly, the Bureau has made commendable progress over 
the past year in rolling out key components of the census and 
has strengthened certain risk management efforts. Still, the 
census remains high risk because the dress rehearsal of all 
census operations that was planned for 2008 was curtailed. As a 
result, critical activities, including some that will be used 
for the first time in a census, were not tested in concert with 
one another or under census-like conditions.
    The bottom line is that key census-taking activities, 
including those that will ultimately drive the final cost and 
accuracy of the count, continue to face challenges and the 
Bureau's overall readiness for 2010 is uncertain.
    One such challenge is building the Bureau's address list. 
Because a complete and accurate address list is the foundation 
of a successful census, the Bureau has a number of operations 
aimed at including every residence in the country and works 
with the U.S. Postal Service, agencies at all levels of 
Government, as well as a number of non-governmental entities.
    In a few weeks, the Bureau will send thousands of workers 
to walk every street in the country to update the census 
address list and maps in an operation called address 
canvassing. Census workers will use handheld computers to 
collect data. As you know, when the devices were tested, they 
experienced performance problems such as freeze-ups and 
unreliable transmissions. The Bureau took steps to fix these 
issues, and the results of a small scale test held last 
December are encouraging. Nonetheless, more information is 
needed to determine the Bureau's overall readiness for address 
canvassing, as the field test was not an end-to-end systems 
test, did not validate training, help desk support, and other 
requirements, and did not include urban areas.
    Uncertainties also surround the Bureau's ability to 
implement operations that will be used for the first time in a 
decennial census, including a targeted second mailing to reduce 
the nonresponse followup workload and the need to fingerprint 
temporary census workers. The Bureau's readiness for these 
activities is uncertain because they have not been tested under 
census-like conditions.
    Another challenge facing the Bureau is reducing the 
undercount. As with past numerations, the Bureau is putting 
forth tremendous effort to reach groups that are often missed 
by the census, such as minorities, renters, and people with 
limited English proficiency. For example, the Bureau plans to 
provide language assistance guides in 59 languages, an increase 
from 49 languages in 2000. The Bureau also plans to deploy a 
comprehensive communications campaign consisting of, among 
other efforts, paid advertising and the hiring of as many as 
680 partnership staff who will be tasked with reaching out to 
local governments, community groups, and other organizations in 
an effort to secure a more complete count.
    Although the effects of the Bureau's communication efforts 
are difficult to measure, the Bureau reported some positive 
results from its 2000 census marketing efforts with respect to 
raising awareness of the census. Still, a longstanding 
challenge for the Bureau is converting that awareness of the 
census into an actual response.
    In summary, just 13 months remain until census day. At a 
time when major testing should be complete and there should be 
confidence in the functionality of key operations, the Bureau, 
instead, finds itself managing late design changes and 
developing testing plans. The Bureau has taken important steps 
toward mitigating some of the challenges that it has faced to 
date, yet much remains uncertain, and the risks to a successful 
census continue.
    I will now turn it over to my colleague, Dave Powner, who 
will discuss the Bureau's management.
    [The prepared statement of Mr. Goldenkoff follows:]

    [GRAPHIC] [TIFF OMITTED] T0732.015
    
    [GRAPHIC] [TIFF OMITTED] T0732.016
    
    [GRAPHIC] [TIFF OMITTED] T0732.017
    
    [GRAPHIC] [TIFF OMITTED] T0732.018
    
    [GRAPHIC] [TIFF OMITTED] T0732.019
    
    [GRAPHIC] [TIFF OMITTED] T0732.020
    
    [GRAPHIC] [TIFF OMITTED] T0732.021
    
    [GRAPHIC] [TIFF OMITTED] T0732.022
    
    [GRAPHIC] [TIFF OMITTED] T0732.023
    
    [GRAPHIC] [TIFF OMITTED] T0732.024
    
    [GRAPHIC] [TIFF OMITTED] T0732.025
    
    [GRAPHIC] [TIFF OMITTED] T0732.026
    
    [GRAPHIC] [TIFF OMITTED] T0732.027
    
    [GRAPHIC] [TIFF OMITTED] T0732.028
    
    [GRAPHIC] [TIFF OMITTED] T0732.029
    
    [GRAPHIC] [TIFF OMITTED] T0732.030
    
    [GRAPHIC] [TIFF OMITTED] T0732.031
    
    [GRAPHIC] [TIFF OMITTED] T0732.032
    
    [GRAPHIC] [TIFF OMITTED] T0732.033
    
    [GRAPHIC] [TIFF OMITTED] T0732.034
    
    Mr. Clay. Thank you so much, Mr. Goldenkoff.
    Mr. Powner, you are recognized for 5 minutes.

                  STATEMENT OF DAVID A. POWNER

    Mr. Powner. Chairman Clay, Chairman Towns, Ranking Member 
McHenry, and members of the subcommittee, the accuracy of the 
2010 census depends in large part on the proper functioning of 
IT systems, both individually and when integrated together.
    Mr. Chairman, your oversight of the Bureau's acquisition of 
IT systems was critical last year. In particular, the field 
data collection system is no longer spiraling out of control, 
and that contract is $500 million less than the initial 
estimates provided at your hearings last summer. Your oversight 
is needed once again in the technology area to ensure that 
between now and census day these systems are rigorously tested.
    Today, we are releasing our latest report, completed at 
your request, which highlights that significant testing 
remains. Six major systems need to complete systems testing, 
and much integration testing needs to occur. Plans for 
conducting this testing are not completely in place. In order 
to ensure effective test execution, the Bureau needs 
comprehensive metrics to monitor test completion and effective 
executive level oversight to keep the pressure on and to manage 
risks.
    Our report contains 10 detailed recommendations that the 
Bureau has agreed to address. For example, integration testing 
includes testing of the interfaces or the handshake between 
systems. Our work found that not only were there not complete 
plans or schedules for integration testing of these interfaces, 
but there was not even a master list or inventory of 
interfaces. Not having such basic information at this stage is 
unacceptable, and our recommendations call for the Bureau to 
develop a master list of interfaces, prioritize the interfaces 
based on criticality and need date, and to use this to develop 
all needed integration plans.
    To the Bureau's credit, we are seeing more plans and better 
metrics, but there is still much work ahead in both areas.
    I would like to stress the need to prioritize. It is likely 
the Bureau will not have enough time to test everything, and 
testing the most important aspects of certain systems, 
interfaces, and operations is critical given the limited time 
remaining.
    Mr. Chairman, again, thank you for your leadership, and I 
look forward to your questions.
    [The prepared statement of Mr. Powner follows:]

    [GRAPHIC] [TIFF OMITTED] T0732.035
    
    [GRAPHIC] [TIFF OMITTED] T0732.036
    
    [GRAPHIC] [TIFF OMITTED] T0732.037
    
    [GRAPHIC] [TIFF OMITTED] T0732.038
    
    [GRAPHIC] [TIFF OMITTED] T0732.039
    
    [GRAPHIC] [TIFF OMITTED] T0732.040
    
    [GRAPHIC] [TIFF OMITTED] T0732.041
    
    [GRAPHIC] [TIFF OMITTED] T0732.042
    
    [GRAPHIC] [TIFF OMITTED] T0732.043
    
    [GRAPHIC] [TIFF OMITTED] T0732.044
    
    [GRAPHIC] [TIFF OMITTED] T0732.045
    
    Mr. Clay. Thank you so much, Mr. Powner, and thank you for 
this report outlining what remains ahead for the Bureau. We 
certainly will exercise that oversight to ensure that they meet 
these standards.
    Dr. Himes, you are recognized for 5 minutes.

                  STATEMENT OF GLENN S. HIMES

    Mr. Himes. Thank you, and good morning. Thank you for the 
opportunity you have given to The MITRE Corp. to update the 
committee on critical operations for the 2010 decennial census. 
The MITRE Corp. is a not-for-profit organization chartered to 
work in the public interest. MITRE manages three federally 
Funded Research and Development Centers [FFRDCs]: one for the 
Department of Defense, one for the Federal Aviation 
Administration, and one for the Internal Revenue Service.
    Governed by Part 35.017 of the Federal Acquisition 
Regulations, FFRDCs operate in the public interest with 
objectivity, independence, freedom from conflict of interest, 
and full disclosure of their affairs to the respective 
Government sponsors. It continues to be our privilege to serve 
with the talented engineers and other professionals who support 
the Census Bureau in its efforts to prepare and conduct the 
2010 decennial census.
    We are pleased to report that since MITRE's last appearance 
before this committee in July, that the Bureau has demonstrated 
continued improvements in managing and overseeing preparations 
for the 2010 decennial census. These improvements include an 
increase in processes and tools to monitor program progress and 
to identify potential risks.
    We are also pleased to report that many significant issues 
with the field data collection automation control have been 
resolved. Approximately a year ago we expressed concerns about 
the cost, schedule, and performance risks for the FDCA program 
to the Census Bureau.
    A risk reduction task force established by the Secretary of 
Commerce and the Director of the Census Bureau recommended a 
rebalancing of work from the contractor to the Government. The 
goal was to enable the contractor to focus on the software 
system necessary to perform the address canvassing operation. 
Based on our observations, it appears that the rebalancing has 
achieved its intended effect, and the risks to the address 
canvassing operation are substantially reduced.
    Although the rebalancing was essential, much of the 
progress is due to positive steps by the Census Bureau's FDCA 
program management office and the contractor's development 
team. Both organizations should be commended for establishing 
an effective working relationship and overcoming the large 
challenges they faced in the past year.
    Although we are cautiously optimistic about the address 
canvassing operation, risks remain within it and other 
operations for the 2010 decennial census. These risks are 
natural for such large programs. Census Bureau personnel update 
and monitor these risks on a regular basis, and constant 
attention will be required until the decennial is completed.
    We remain committed to helping the Census Bureau prepare 
for a successful 2010 decennial census. Thank you for inviting 
us to this hearing, and I would be happy to answer your 
questions.
    [The prepared statement of Mr. Himes follows:]

    [GRAPHIC] [TIFF OMITTED] T0732.046
    
    [GRAPHIC] [TIFF OMITTED] T0732.047
    
    [GRAPHIC] [TIFF OMITTED] T0732.048
    
    [GRAPHIC] [TIFF OMITTED] T0732.049
    
    [GRAPHIC] [TIFF OMITTED] T0732.050
    
    [GRAPHIC] [TIFF OMITTED] T0732.051
    
    [GRAPHIC] [TIFF OMITTED] T0732.052
    
    [GRAPHIC] [TIFF OMITTED] T0732.053
    
    [GRAPHIC] [TIFF OMITTED] T0732.054
    
    [GRAPHIC] [TIFF OMITTED] T0732.055
    
    [GRAPHIC] [TIFF OMITTED] T0732.056
    
    [GRAPHIC] [TIFF OMITTED] T0732.057
    
    [GRAPHIC] [TIFF OMITTED] T0732.058
    
    Mr. Clay. Thank you so much, Dr. Himes, for your testimony.
    We will begin under a 10 minute rule for each side, and I 
will start with Mr. Mesenbourg.
    Mr. Mesenbourg, it sounds like the Bureau has come a long 
way since our last meeting. I commend you and your staff. A lot 
of the work was inspired by GAO findings, so I want to also 
commend Mr. Powner and Mr. Goldenkoff, along with Mr. 
Goldenkoff's predecessor, Matthew Siree, for the great work 
their teams have done on the 2010 census.
    It was GAO that first brought to this committee's attention 
the problems with FDCA. They recommended consistent oversight, 
to which this subcommittee has been committed. I also want to 
commend Dr. Himes for the important role MITRE has played in 
helping the Bureau to resolve problems.
    Let's go straight to testing. GAO made 10 recommendations 
to ensure that testing activities for key systems are 
completed. What action is the Bureau taking or planning to 
address GAO's recommendations?
    Mr. Mesenbourg. Mr. Chairman, we have provided a detailed 
response to GAO, but let me just sum up some of the major steps 
that we have done.
    Last April, when the decision was made to re-plan the 
census and to shift from the handheld use in the nonresponse 
followup to a paper base, we did a thorough review at that 
point of our testing program. We did an inventory of the 
testing and we found some data gaps, and then we addressed 
those by adding additional tests.
    We also, later last year, appointed a testing officer with 
responsibility over all testing for the decennial census, and 
we have made testing metrics a key part of every operational 
review. So we look at the census. We have about 51 key 
operations that we are doing, and those are things like 
nonresponse followup. We have 25 systems that those operations 
interact with, and we have 244 interfaces between systems.
    So late last year we also appointed an integration manager 
who has responsibility to make sure all of the activities that 
we took out of the FDCA contract now will fit together and will 
be integrated.
    We clearly face some challenges, given the de-scoping of 
the census. So we took over about 11 key paper operations. And 
I think we are being responsive to Mr. Powner's comment of 
trying to prioritize.
    So we are implementing what we would call a thread test, 
and those are key activities within a process, for example, our 
first focus is on nonresponse followup and group quarters 
evaluation. Testing on those activities and the operational 
control system will begin on April 20th. We think those two 
operations test a huge amount of the functionality that we will 
use in the other nine operations.
    Mr. Clay. OK, let me stop you right there and ask you in 
the report, GAO stated that in May 2008 the Bureau established 
an inventory of all testing activities specific to all key 
decennial operations, but that the inventory had not been 
updated since that time. What is the current status of testing 
activities for the 2010 census?
    Mr. Mesenbourg. At this point, we do have a comprehensive 
inventory of all of the testing that we need to do. Given the 
time constraints that we are under, there will be some 
operations that we have performed in the past that we will not 
test as thoroughly as we will some of the new activities.
    Mr. Clay. Where is the Bureau on the development of the 
operations control system for paper-based operations?
    Mr. Mesenbourg. OK, at the end of January, we integrated 
the schedule for the operational control system that will 
control 11 paper-based operations in the census. We integrated 
that into the master activities schedule. So that is done. And 
we do have a detailed plan at this point, and schedule, for 
what we are calling Release-0. Release-0 will focus on the 
nonresponse followup and the group quarters enumeration. Then 
we will follow with a Release-1, which will take on additional 
operations such as remote Alaska. So I believe we have a 
detailed plan that we can move ahead, and each one of those 
releases will have testing as part of the sign-off.
    Mr. Clay. And at what date certain can we expect you to 
report to this subcommittee that adequate plans for total end-
to-end testing are in place?
    Mr. Mesenbourg. To be honest, there will not be end-to-end 
testing of all operations, because what we will have to do is 
we will test at key functionality, which will show up in other 
operations. What we are going to do, for example, the push of 
the nonresponse followup into the--that functionality we can 
test based on the dress rehearsal responses. We will put up a 
mock environment that will send workload to be identified for 
nonresponse followup, and we will be able to test that in the 
operational control system that will control nonresponse 
followup.
    Mr. Clay. Now, you heard Mr. Powner say time is of the 
essence, and you still have six major systems that still need 
to be tested. Are you cognizant that time is of the essence, 
that we are closing in on a year to go?
    Mr. Mesenbourg. Mr. Chairman, we are very cognizant that 
time is of the essence. We have an extremely tight schedule, 
and it is going to be critically important that we stick to 
that schedule.
    Mr. Clay. OK, thank you for that response.
    Mr. Driehaus, you may followup.
    Mr. Driehaus. Thank you, Mr. Chairman. I just have one very 
brief question for Mr. Mesenbourg.
    Mr. Mesenbourg, I am particularly concerned about the 
number of houses that are currently in foreclosure across the 
country, and the transience we are seeing in our population. 
You know, the movements of population that we are seeing, 
especially in the inner cities, that are traditionally 
difficult to count, you know, we are seeing folks move around 
at record levels; and I am concerned as to whether or not the 
Census Bureau is taking the necessary steps to account for that 
movement and how you are coping with that.
    Mr. Mesenbourg. It is a growing problem, there is no doubt 
about that. The address canvassing operation that we will start 
at March 30th will visit every address, whether occupied or 
vacant. So the critical first step is to ensure that we have a 
complete address list for the 2010 decennial census. So that is 
job one, to make sure we have the list.
    Mid-March of next year we will mail out report forms to 
almost every household in the United States. If that address is 
vacant, then they will not respond the form and they will go 
into the nonresponse followup operation. We will send an 
enumerator to that address to see if anyone is there. If they 
are there, we will collect the data. We will go back six times 
to make sure that we can reach a person. If it is unoccupied, 
of course, we will miss them.
    We have taken some steps to address this issue, so we have 
added two questions to the 10-question 2010 census form that 
gets at coverage problems. One of those questions relates to do 
you have a relative living with you that you may not have 
listed on the report form. That will kick off an action to put 
that into a followup activity that will try to identify why 
that person wasn't listed. So that will be one way that we will 
attempt to address the issue of foreclosures and people moving 
in to non-traditional living arrangements.
    But I think a key message of both our advertising and our 
partnership program will be is to get out into the local 
community and to convince them, through trusted voices in the 
community, that if you are doubling up or if you are living in 
a non-traditional living arrangement, that it is important that 
you be counted and that you are listed on the report form.
    Mr. Clay. Thank you so much.
    Mr. McHenry, you are recognized for 10 minutes.
    Mr. McHenry. Thank you, Mr. Chairman.
    Thank you all for testifying today. We certainly appreciate 
it. This is an important matter that we take very seriously, 
and I know you do as well.
    Mr. Mesenbourg, thank you for your service. I know it has 
only been brief. You are serving Government only 36 years, and 
we thank you for it. When the short-timer, Mr. Jackson, sitting 
behind you, is only there for 20 years, we certainly know you 
have expertise and great knowledge based on experience, so 
thank you.
    So, Mr. Mesenbourg, it is my understanding there are plans 
to conduct a post-enumeration survey as part of the 2010 
census. Is this correct?
    Mr. Mesenbourg. We do have plans to do a coverage 
measurement program as part of the 2010 census.
    Mr. McHenry. OK. What is the sample size of this service?
    Mr. Mesenbourg. Sample size is going to be about 300,000 
housing units.
    Mr. McHenry. OK. Is this comparable to the 2000 census?
    Mr. Mesenbourg. It is comparable to the 2000 census.
    Mr. McHenry. Is it the same number or----
    Mr. Mesenbourg. It is very close to the same number.
    Mr. McHenry. Do you recall what the 2000 number was?
    Mr. Mesenbourg. I don't, off the top of my head, but 
certainly we can get you that number.
    Mr. McHenry. Certainly. And has the Bureau increased or 
changed the post-enumeration survey for this census?
    Mr. Mesenbourg. We have made some changes to do a better 
job trying to identify duplicates in the census. That was an 
issue in 2000. The focus of the 2010 coverage measurement 
program is to provide better information about the components 
of error. So we will be providing data not only on the net 
error, but also components of error such as duplicates, 
omissions, and so on.
    Mr. McHenry. Has this been changed in the planning process 
or is this a change from the 2000 census?
    Mr. Mesenbourg. This has been the plan during the entire 
decade.
    Mr. McHenry. OK. And how does the Bureau tend to use the 
post-enumeration survey? You outlined generally, but more 
specifically?
    Mr. Mesenbourg. We are using it primarily to provide 
measures of the error and as input to improving the 2020 
decennial census.
    Mr. McHenry. OK. And is there any thought that the Bureau 
would use this survey to adjust or change the 2010 count?
    Mr. Mesenbourg. The plan does not include any plans to use 
the coverage measurement for adjustment.
    Mr. McHenry. OK. Are there any other thoughts to that or 
any other considerations to that?
    Mr. Mesenbourg. Not in our current plan there isn't.
    Mr. McHenry. OK. Yesterday, as I mentioned in my opening 
statement, it has been reported that Commerce Secretary 
Designee Gary Locke met with leaders of the Senate Commerce 
Committee and, according to the news reports, stated that ``so-
called sampling will be used minimally as an accuracy check.'' 
I believe he is referring to the post-enumeration survey. Is 
that how you would read it?
    Mr. Mesenbourg. Well, the coverage measurement will provide 
estimates of the number of housing units and the number of 
persons. Then you will have the apportionment number also. But 
I am not sure what Governor Locke had in mind.
    Mr. McHenry. Yes, it is hard to impute from politicians 
what they mean. So that would be somewhat in keeping with what 
you have outlined, just as a survey to check the accuracy. OK.
    Now, in terms of a fair and accurate census, what is your 
definition of a fair and accurate census?
    Mr. Mesenbourg. Well, we see job one as to count everyone, 
and we see an expanded advertising and partnership program as a 
key part of doing that. We also have done a number of 
additional things from an operational perspective that we hope 
will improve the count. This will be the first time we are 
using a short form only census, so 10 questions, 10 minutes to 
fill it out. We also will be using a bilingual form, English-
Spanish, that will target 13 million households in areas where 
English is not often spoken at home.
    We will be using a second mailing, a targeted second 
mailing, doing a blanket mailing to traditionally low response, 
low mail response areas, and then sending a replacement form 
out to another group, to the non-respondents. And we hope and 
expect that a much more robust partnership program will get the 
message out to the local community that it is critical to 
participate in the census.
    Mr. McHenry. So, in short, do you believe the Bureau's main 
goal for the 2010 census is to count every person once, only 
once, and at the right place?
    Mr. Mesenbourg. That has always been our goal.
    Mr. McHenry. All right. So that means a count of people. 
That means an exact enumeration in counting.
    Mr. Mesenbourg. We will make every effort we can to get a 
response, an actual response back from every household in the 
United States.
    Mr. McHenry. Two of the greatest challenges, you have 
mentioned this and I am glad the Bureau has really thought 
through the undercount and overcount numbers, and appreciate 
the fact that you have programs directly focused on the 
undercount. Would you describe the challenge of the undercount 
and the overcount as one of the most challenging of the 
challenges the Bureau faces in the 2010 census?
    Mr. Mesenbourg. Well, I think it would be clear getting 
people to participate is the biggest challenge. So missing 
people is, in my mind, a more significant challenge than 
addressing the duplicates. We have done both things, we have 
added two coverage questions to the 2010 census.
    One is to help us get at undercount, where someone 
incorrectly or mistakenly left a person off the report form 
that should have been on the report form; and we have added 
another question to help address the overcount, where someone 
may have included, let's say, for example, a college student 
that should have been counted at the dorm where they spend most 
of their time. So there are two questions there, and answers to 
those questions will generate a telephone call as part of our 
coverage followup operations to try to gather more information 
to get the person counted in the right place.
    Mr. McHenry. Well, I think we all understand the 
sensitivities of ensuring that undercounted communities and 
people are focused upon and ensure that we actually get them 
counted, which takes a lot of effort, a lot of resources, and 
we want to be of assistance to that with you and the 
stakeholders in this.
    With that, I would like to yield the remainder of my time 
to the deputy ranking member, Congressman Westmoreland, from 
Georgia.
    Mr. Westmoreland. Thank you, Congressman McHenry.
    First to Mr. Goldenkoff and Mr. Powner. You know, I have 
been in quite a few of these oversight hearings and I have seen 
a lot of reports from the GAO, and I have never seen one that 
said you all are doing a good job. So I know that you all do a 
very good job. But this comes pretty close, when it says that 
there are no new recommendations. Now, is that because you 
didn't go in and look at everything again, or are you just 
going on a past report? Either one of you.
    Mr. Goldenkoff. I think what you are referring to is our 
testimony today, and the reasons that there were no new 
recommendations is that all our recommendations----
    Mr. Clay. Maybe if you move it closer to you, Mr. 
Goldenkoff.
    Mr. Goldenkoff. I think what you are referring to is our 
testimony where we said that there were no new recommendations. 
That was just because our testimony was based on previously 
issued work, most of which did contain recommendations.
    Mr. Westmoreland. OK.
    Mr. Powner. And, Congressman Westmoreland, I just want to 
be clear.
    Mr. Westmoreland. OK.
    Mr. Powner. We are releasing a report today on system 
testing, so not to disappoint. We have 10 new recommendations 
today that we are releasing for the first time, on testing.
    Mr. Westmoreland. OK. One of the other things that you had 
talked about was the complete and accurate address list. Is 
that correct?
    Mr. Goldenkoff. That is correct.
    Mr. Westmoreland. When do you think the best time would 
have been to get a complete and accurate address list?
    Mr. Goldenkoff. It is something that goes on throughout the 
decade. The Bureau is constantly working with the Postal 
Service, through the Postal Service's delivery sequence file, 
to update the address list.
    And now, as was already mentioned, or starting in April, 
the Bureau will go out and actually walk every street in the 
country to verify on the ground housing units, occupied housing 
units; and it is a difficult task because it is not always 
clear what meets the eye. There could be several families 
living in there, so you really have to go within six inches of 
a house sometimes to see double doorbells, two names on a 
mailbox that could indicate that there might be somebody living 
in the basement or in the shed in the back. So it is a very 
challenging task.
    Mr. Westmoreland. I understand. But the reality of it is, I 
guess, the last address check is going to be the most accurate, 
and to me, at least, the Census Bureau, from information and 
testimony I heard today from Mr. Mesenbourg, is that they have 
asked local cities and counties and others to do that, and they 
are trying to make sure that the information that they have 
before they do the mailing is also the most recent and most up 
to date and the most correct information. Would you agree with 
that?
    Mr. Goldenkoff. That is correct. You need to do it as close 
as possible to census day, but at the same time allow for the 
updating to take place so they can do the mail-out. So there 
needs to be some buffer in there.
    Mr. Westmoreland. Thank you.
    Mr. Clay. Thank you, Mr. Westmoreland.
    My friend from New York, Mrs. Maloney, is recognized for 5 
minutes.
    Mrs. Maloney. Thank you, Mr. Chairman.
    I would like to ask the representatives from GAO to respond 
to the earlier question on whether or not the operational 
testing on payroll, personnel changes, etc., were up to the 
systems of 2000? Are they at the same level? Are you pleased 
and agree with the prior answers to this question, that 
operational testing was correct, in place, and happening to the 
degree that it should to make sure that our systems do not 
falter or fail?
    Mr. Goldenkoff. I would disagree with that. One of the 
issues is that there was no dress rehearsal, and the dress 
rehearsal, as the name implies, is essentially a test census, 
as close to census-like conditions as one can possibly get 
without actually conducting the census. So because it was 
curtailed, what was done during the dress rehearsal was fairly 
limited, there were certain operations that just weren't 
tested, so the Bureau is going into 2010 now conducting the 
actual census, in some respects, flying blind.
    For example, there was no load testing. The number of 
millions of forms, millions of pieces of paper need to be 
process, and the Bureau never had an opportunity to test under, 
in a lot of cases, anything close to a load test of what would 
be a simulated census. So it really fell quite short of that.
    Mrs. Maloney. Well, what are the contingencies if these 
systems falter or fail? What are the contingencies?
    Mr. Goldenkoff. In some cases, the Bureau, if it starts 
falling behind, the Bureau has been good in the past with 
workarounds and patches. It all depends on how bad the problem 
is. You know, in some cases the Bureau will fall behind 
schedule, and that has implications for downstream operations. 
In other cases things might cost more money. But that is one of 
the issues, that in some cases there is no backup or there is 
no contingency; it has to be done and done right.
    Mrs. Maloney. I would like to followup with a question on 
the budget. You really can't move forward without a proper 
budget. Do you have a full 10-year cycle cost estimate for the 
decennial operations that you could give the committee today?
    Mr. Mesenbourg. Yes. Our expectation is the life cycle cost 
is going to be between $14 billion and $15 billion for the 
decennial census.
    If I could, I would like to just respond briefly on the 
payroll system. The decennial applicant payroll system is up 
and running. This is the key tool that we use to process 
applicants and then to pay them. So at this point in time we 
have over a million applicants in that system. We are actually 
only going to hire about 140,000 people for address canvassing, 
but the demand for jobs has been so huge that we have had over 
a million applicants; and right now we have about 10,000 people 
that are getting paid through this system, and in another 
couple weeks that will jump up by about 140,000.
    Mrs. Maloney. How much money were you given in the stimulus 
plan?
    Mr. Mesenbourg. We were given $1 billion.
    Mrs. Maloney. $1 billion?
    Mr. Mesenbourg. $1 billion.
    Mrs. Maloney. And what are your plans for spending the 
additional money you were given in the stimulus plan?
    Mr. Mesenbourg. The whole focus of this is to do as good a 
job as we can improving the count, and the bill language 
directed us to focus that money on enhanced and improved 
advertising and partnership activities, and that certainly is 
our intention. We also hope to invest additional moneys in our 
coverage followup operation, adding about another million to 
the workload; and then the remainder of the funds would be 
there to support key 2010 activities. But in the short term, in 
terms of 2009, the expenditures will be primarily focused on 
expanded media buys and advertising and our partnership 
program.
    Mrs. Maloney. And with the remaining money to make other 
choices, what is your basis for making these choices? Do you 
have an analysis of what needs to be done or other areas that 
you need help and support to make a more accurate census?
    Mr. Mesenbourg. Our criteria have been to focus on those 
activities that will contribute the most to the census. 
Actually, we have provided a plan to the Office of Management 
and Budget in terms of what our focus is, and we are awaiting 
their response at this point.
    Mrs. Maloney. Thank you very much. My time is expended, is 
no longer. I have used up my time. Thank you. Thank you for all 
your hard work.
    Mr. Clay. Thank you so much, Mrs. Maloney.
    I now go to the gentleman from Utah, Mr. Chaffetz, for 5 
minutes.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    Mr. Mesenbourg, you are a career civil servant, correct?
    Mr. Mesenbourg. Yes, I am.
    Mr. Chaffetz. With more than adequate funding, do you 
believe the Bureau has the talent and capability to oversee a 
professionally implemented and successful 2010 census?
    Mr. Mesenbourg. I do.
    Mr. Chaffetz. I would like your opinion, as the Census 
Bureau professional, on an important matter. You are currently 
operating without a Presidentially appointed, Senate-confirmed 
director, correct?
    Mr. Mesenbourg. That is true.
    Mr. Chaffetz. Do you believe the Bureau has the talent and 
expertise to continue planning for and implementing a 
successful 2010 census without a Presidentially appointed, 
Senate-confirmed director?
    Mr. Mesenbourg. Well, I am doing two jobs at this point, 
and I guess what I see my job is right now is to continue to 
execute the plans to conduct a successful 2010 census. I have 
no ambitions to be permanent director of the Census Bureau, but 
my job is to keep that train moving down the track so, when we 
do get a Census Bureau director, we are in a better place than 
we were before.
    Mr. Chaffetz. But do you believe that the Bureau has the 
talent and expertise currently in place right now to execute?
    Mr. Mesenbourg. I believe we have the talent to keep the 
train moving down the track. I am not going to take a position 
whether we should have a director or not have a director. We 
have always had a director and I would----
    Mr. Chaffetz. Fair enough.
    Mr. Mesenbourg [continuing]. I think a director would be 
useful for us.
    Mr. Chaffetz. As you know, the results of the 2010 census 
are used for appointment, redistricting at all levels of 
government, and the allocation of Federal funds. All of this is 
correct, right?
    Mr. Mesenbourg. That is true.
    Mr. Chaffetz. So, in your opinion, is it better to conduct 
a census that is free from political influence, or do you think 
politicians should be telling you how to do your job?
    Mr. Mesenbourg. Well, the Census Bureau, in my 36 years, we 
have made decisions, technical decisions and program decisions, 
on the technical merit of the issues. We have not made 
decisions based on any kind of political pressure. That has 
been my experience over 36 years.
    Mr. Chaffetz. The census is based on the Constitution, 
correct?
    Mr. Mesenbourg. That is true.
    Mr. Chaffetz. Do you recall which article or whatnot?
    Mr. Mesenbourg. That is embarrassing to say, not.
    Mr. Chaffetz. Article 1 of the Constitution deals with the 
powers of Congress, the legislative branch of our Government, 
correct?
    Mr. Mesenbourg. True.
    Mr. Chaffetz. So regarding anything having to do with the 
conduct of the census, it should be the Congress that has the 
authority and jurisdiction, do you agree?
    Mr. Mesenbourg. You are getting me into territory I am not 
an expert on. It is clear the Congress has a responsibility to 
oversee our operations, yes. I would agree with that.
    Mr. Chaffetz. How will the Bureau protect the integrity of 
the census from outright fraud?
    Mr. Mesenbourg. From, I am sorry, outright?
    Mr. Chaffetz. Just outright fraud. What protectors are in 
place to make sure that doesn't happen?
    Mr. Mesenbourg. We have a whole series of quality control 
operations that we have in place that check the operations. So, 
for example, when we start address canvas--well, I will give 
you a better example. Right now we are about 90 percent done 
with the large block enumeration, and after that--now we have 
started to send QC people, other enumerators out to check the 
quality of that work. Every operation that we do will have a QC 
operation attached to it, and that will be one check.
    Another check in terms of housing unit counts, in-person 
counts, will be our pop estimates programs that makes most of 
those. That is another quality check that we have.
    Mr. Chaffetz. So if you have an enumerator who fraudulently 
fills out data and then submits these facts, do you believe 
there is a check and a balance in place to deal with that?
    Mr. Mesenbourg. I do believe that we have a check in place 
that will identify that problem, yes.
    Mr. Chaffetz. What is to keep somebody who gets the form in 
the mail and then knowingly fills it out incorrectly, I mean 
grossly incorrectly? How do we deal with that?
    Mr. Mesenbourg. Well, there will be some additional checks 
against some administrative records, information that we have 
access to. But that is going to be very, very difficult to 
catch every one of those, if a person added an extra individual 
in the process. But we will do some re-interviewing there, so 
if it is systematic on the part of an enumerator, then we would 
catch it.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    Mr. Clay. Thank you, Mr. Chaffetz.
    Mr. Mesenbourg, let's go back to the operational control 
system. The OCS is the brains of the whole system of the field 
operations. When will end-to-end testing for the OCS be in 
place?
    Mr. Mesenbourg. The first testing will be done April 20th 
through May 1st. So what we have done because of the timing 
pressures that we are under, we are going to address key 
operations on an incremental process. So the actual final 
testing will not be done on all of those interfaces until next 
March.
    Mr. Clay. Mr. Powner or Mr. Goldenkoff, is that adequate, 
as far as the response to ensure success?
    Mr. Powner. I think the key is it is a tough challenge for 
them because not everything is in place. So part of what they 
are dealing with is you want to test what you have now, but I 
think it is very important, as was stated, that you come back 
and retest. The key here, though, is there is a lot of these 
examples in place. We have six major systems, we heard 244 
interfaces, 44 operations.
    OK, so when you start looking at all that, getting it all 
done and testing it in an integrated fashion, end-to-end, as 
you are asking, Mr. Chairman, see, we don't see all the 
prioritization and the plans in place. So, going forward, what 
is very important is that we see the appropriate plans. But 
then we have key metrics so we know exactly what is done, how 
well it is done, and then what remains ahead to complete. And 
the OCS is just one example of many challenges that they face 
going forward between now and census day.
    Mr. Clay. OK, Mr. Goldenkoff, the Bureau has many 
challenges facing its final preparation and conduct of the 2010 
decennial census. What do you think places the 2010 census at 
greater risk and what can be done about it?
    Mr. Goldenkoff. I think there are really two great risks: 
one, time is running out and, two, the lack of testing of key 
operations. So as was already stated here today, the Bureau 
needs to prioritize what it can do, what it can't do; figure 
out where, within all those different operations and activities 
that haven't been tested, where the Bureau is most vulnerable; 
and, second, make sure everything stays on track.
    A third area is perhaps more marketing and promotion, 
because the non-response or the response rate, rather, is key 
to success.
    Mr. Clay. You know, address canvassing is set to begin 
nationwide within a few weeks. The Bureau never was able to 
carry out an end-to-end test of the new handheld devices with 
all the procedures in the field. How prepared is the Bureau to 
conduct address canvassing and how can the Bureau be confident 
that everything will work as the Bureau hopes without having 
tested it all?
    Mr. Goldenkoff. Well, I think that--you know, the Bureau 
does not know what it doesn't know because, again, the lack of 
testing. They had the operational field test in Fayetteville, 
NC, and what that demonstrated was that, under the conditions 
in Fayetteville, NC, the handhelds functioned well. The 
problems that we had seen in earlier tests did not reemerge.
    The problem is that, obviously, the country does not all 
look like Fayetteville, NC; you have urban areas, you have more 
rural areas. So the question is how will those handhelds 
perform, for example, in an area with lots of skyscrapers? Will 
they be able to lock on to a satellite signal? Will they be 
able to transmit data? And that is what nobody really knows. It 
is a big question mark.
    Mr. Clay. Should we be worried about the census being 
conducted on time?
    Mr. Goldenkoff. I think that, come April 1st, forms will go 
out; by law, they need to. The question is really accuracy and 
quality of the census. Accuracy and cost, rather. That is 
really what it comes down to. Key operations they will get 
done, they need to get done. It is just a question of how much 
will things cost and how good will the results be. At the end 
of the day, the data need to be delivered to the President come 
December 31, 2010. So whether they need to compress operations 
or speed things up at some point, they are under the gun. So 
things will happen on time, it is just a question of cost and 
accuracy.
    Mr. Clay. Sure. Thank you.
    Mr. Powner, when the Census Bureau provided comments on 
GAO's report, it stated that it was putting much more focus on 
testing new things for 2010 and not testing things that have 
worked before. What is GAO's assessment of the Bureau's 
comment?
    Mr. Powner. We would not agree with that. Clearly, it is 
important to test new things, but if you have old things that 
are critical and you change software and hardware associated 
with that, that needs to be tested; and that was really the 
focus of our report. It is really based on a prioritization. So 
the prioritization might be new things, but it could very well 
be older things also.
    Mr. Clay. Thank you for that response.
    Now I will recognize the gentleman from Georgia, Mr. 
Westmoreland, for 5 minutes.
    Mr. Westmoreland. Thank you, Mr. Chairman. Just following 
up on some of the comments that the gentleman from Utah had.
    Mr. Mesenbourg, what quality controls are you going to have 
on these enumerators? The gentleman from Utah questioned about 
them filling out the forms wrong, but what kind of quality 
controls do you have on these enumerators?
    Mr. Mesenbourg. OK, every major operation we have a QC 
activity related to that, so we will actually go, take a sample 
of the enumerations, and we will have a different person go 
back and attempt to collect that same data; and that provides 
us a clear signal in terms of the quality. If there are issues 
related to a specific interview, we call that operation a re-
interview operation to identify problems. If we identify a 
problem, then we will zero in on that enumerator and then do 
100 percent check of all of their work. But every operation we 
do we are going to have a QC step built into it to check the 
quality of it.
    Mr. Westmoreland. OK. And let's say that you do correctly 
identify an enumerator. What kind of corrective actions could 
be taken?
    Mr. Mesenbourg. They could be terminated, and certainly 
they would be out of the enumeratoring business as soon as we 
identified that.
    Mr. Westmoreland. OK. I know that the Bureau, as you have 
mentioned, will automatically mail a second census form to 
these traditionally, I guess, hard to count areas or the no 
response. That is correct, right, you will do a second mailing?
    Mr. Mesenbourg. Second mailing, a blanket second mailing to 
areas that have a traditional very low mail response. We will 
do a blanket mailing and then we will have another group that 
sort of intermediary, possibly, under 50 percent. Then we will 
mail the non-respondents, the household that hadn't returned a 
form will get a form there.
    Mr. Westmoreland. OK. So you feel comfortable that you are 
going to hit these under-response areas very well with a second 
mailing.
    Mr. Mesenbourg. We have tested the second mailing during 
the decade. We used it during the dress rehearsal. We are 
confident that it will be beneficial.
    Mr. Westmoreland. So you believe the second mailing is 
going to enhance your response.
    Mr. Mesenbourg. Yes.
    Mr. Westmoreland. How will you ensure that the data capture 
isn't wrongfully counted twice for those returned forms from 
both mailings? What is your system in place there to check 
that?
    Mr. Mesenbourg. OK, in terms of data capture, forms will be 
returned and go through one of our automated three data capture 
systems, actually do OCR on the forms. Then we will do a 
matching operation; every form will have a unique 22 digit 
identifier on that. If we can't match, that generates a whole 
host of additional investigative work.
    Mr. Westmoreland. OK, so----
    Mr. Mesenbourg. So we have an automated process to make 
sure that we are not getting duplicate returns in.
    Mr. Westmoreland. Thank you.
    Mr. Goldenkoff, do you believe, because of all the stuff 
that we have been hearing in the news about we need a director, 
we don't have a director, whatever, you and Mr. Powner, do you 
believe that the Bureau has the right talent in-house to 
oversee this 2010 census?
    Mr. Goldenkoff. The Bureau employees are extremely 
dedicated, extremely competent, and they have lots of 
experience. The concern is that here it is getting, with 10 
yards to go until the goal line, census day, there is no 
permanent quarterback in place. And the other issue to 
consider, as well, not only who is calling the shots, who is 
being held accountable by Congress to the American taxpayers. 
This is also the time when the Bureau starts planning for the 
next census, the 2020 census.
    So you need somebody in place who will take on, who will be 
responsible and held accountable for that as well, and making 
those sorts of decisions. So clearly the competency is there, 
there is no question about that; we have seen it in past 
decennials. But we need someone who is a strategic leader and 
someone who goes through the conventional selection process.
    Mr. Westmoreland. OK. Given that this short form--and it is 
only a short form for the census--do you think that better 
equips the Bureau to conduct this census than in previous----
    Mr. Goldenkoff. Most definitely. It should improve the 
response late because it is less burdensome than having a short 
form and a long form. I mean, back in 2000, studies have shown 
that the response rate to the short form was higher than to the 
long form. So you would be more willing to spend 10 minutes 
than 40 minutes on the long form.
    Mr. Westmoreland. Right. It makes it a little easier for 
them to fill it out.
    Mr. Goldenkoff. That is correct.
    Mr. Westmoreland. And probably not as deep questions or 
personal questions as it was.
    Is my time up, Mr. Chairman?
    Mr. Clay. Yes, sir. Thank you, Mr. Westmoreland.
    I recognize the gentleman from Utah for 5 minutes.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    Mr. Powner, do you believe that there is enough talent to 
oversee and conduct the 2020 census?
    Mr. Powner. From a technology point of view, for 2020, the 
Census Bureau needs more IT talent on board, clearly. If you 
look at what happened last summer with the FDCA problems, 
fortunately, we have organizations like MITRE. They hired some 
external folks to come in and help at executive levels. There 
are folks that are trying to do a good job there right now, but 
going forward we need more IT talent internal to the Bureau.
    Mr. Chaffetz. Like previous decennials, the Bureau is using 
paper and pencil for nonresponse followup. But unlike previous 
years, we have better maps for enumerators, a targeted second 
mailing of the census form to the hard-to-count areas, and 
likely a better applicant pool from which to hire these 
enumerators. Shouldn't all these factors lead to a more 
accurate census?
    Mr. Goldenkoff. Yes, they should lead to a more accurate 
census. You can handle the nonresponse followup workload 
faster, which is important because it reduces recall error. So 
all those things you mentioned should lead to that direction.
    Mr. Chaffetz. And if you could summarize for me again real 
quickly the major hurdles you see and if any of these hurdles, 
you know, what the consequences would be if we are unable to 
overcome those hurdles.
    Mr. Goldenkoff. Well, first, time is running out. There is 
just no time for missteps. There is no slack in the schedule. 
So to the extent that challenges or glitches emerge--and those 
things are inevitable--something comes up in testing, there is 
not a whole lot of time left to figure what the workaround is.
    Second, the population is complex, demographically complex. 
So as I said in my statement, a key challenge is converting 
that awareness of the census into an actual response. The 
Bureau has been very good in terms of getting the word out. 
Ninety percent of the population or so is typically aware of 
the census, but the actual response rate is much lower. So that 
would be another hurdle.
    Mr. Chaffetz. Would you concur or disagree that the census 
is rooted in Article 1 if the Constitution, which enumerates 
the powers of the legislative branch?
    Mr. Goldenkoff. I will pass on that one.
    Mr. Chaffetz. I guess the question is who do you believe 
the census director reports to?
    Mr. Goldenkoff. Well, legally, to the Commerce Secretary. 
That, I believe, is in statute.
    Mr. Chaffetz. And is it your experience from past 
decennials that the director often briefed the President, but 
never ``reported to him?''
    Mr. Goldenkoff. Well, from what we have seen in news 
accounts and also from some experience during the Bush 
administration, there was some contact between the census 
director and the White House, OMB, and that is not necessarily 
a bad thing.
    Mr. Chaffetz. But communication is a little different than 
actually reporting to.
    Mr. Goldenkoff. Right, they are two different things. It is 
one thing for the White House to be aware of and make sure that 
the census stays on track, but that is not a reporting 
relationship. But in terms of holding the Bureau accountable, 
it is a very powerful tool to have White House involvement. The 
thing is that the White House, it has to be that right balance 
between focusing on management and operational issues versus 
the science of the census. You don't want the White House or 
any political influence on the science of taking the census.
    Mr. Chaffetz. Very good.
    Thank you, Mr. Chairman.
    Mr. Clay. Thank you, Mr. Chaffetz.
    Just one question for Dr. Himes. You know, the Bureau is 
working with MITRE on mitigation plans. What are your greatest 
concerns about timetables in the plans?
    Mr. Himes. Sir, I think, again, our greatest concern would 
be those that GAO has put together, the time to test and verify 
where the systems are working, particularly from a system view. 
So we think that there are tools in place that gives Census 
better insights into the status of their systems than they have 
had in the past; and the people that are working on them have 
substantial experience, but it is still a fairly large burden 
considering the amount of time remaining to track that whole 
activity end-to-end.
    Mr. Clay. Thank you so much for that response, Dr. Himes.
    I will yield to Mr. Westmoreland.
    Mr. Westmoreland. Thank you, Mr. Chairman. I appreciate 
that.
    I didn't have any other questions, but when Mr. Goldenkoff 
passed on the Article 1 if the Constitution question, I felt 
like we might want to discuss that a little bit further, that 
the GAO understands that we feel like the origin of the census 
is rooted----
    Mr. Goldenkoff. Oh, no question, Article 1. I misunderstood 
the question.
    Mr. Westmoreland [continuing]. In Article 1 of the 
Constitution, which enumerates the power of the legislative 
branch.
    Mr. Goldenkoff. Yes.
    Mr. Westmoreland. So I just wanted to make sure that you 
understood that and you were just passing on the question maybe 
for----
    Mr. Goldenkoff. No, I guess I misunderstood the question. I 
apologize.
    Mr. Westmoreland. OK.
    Mr. Goldenkoff. But, definitely, it is Article 1, Section 
2, and that spells out the basic requirements of the census.
    Mr. Westmoreland. Mr. Chairman, I would like to just make a 
comment, if I could. We all understand how important this 
census is for redistricting, for the allocation of Federal 
money, and I am very pleased with the testimony that we have 
heard today, because I think that everybody on that panel wants 
to have an accurate count, an enumeration of everybody in this 
country, people who are here at the time of the census.
    So I think that is the reason that there has been so much 
about whether the White House wants to have it reported to or 
to the Commerce Secretary, there is or is not a director. I 
feel very confident from just the information I have heard from 
the Census Bureau and the Acting Director there, and from the 
GAO and the things that they have looked at, that this process 
is going forward about as well as it could, and that there has 
been a lot of hard work put into it. So I think that the reason 
there is so much going on right now is everybody wants to make 
sure that every person is counted.
    So I appreciate all of you coming.
    I want to thank the chairman for having this hearing, 
because I think he recognizes the importance to each and every 
one of us, and the fact that we get a very accurate count. So 
with that, Mr. Chairman, I yield back the balance of my time.
    Mr. Clay. Thank you, Mr. Westmoreland.
    In conclusion, let me thank the witnesses for their 
testimony today.
    Mr. McHenry. If I could ask just one.
    Mr. Clay. You have another question?
    Mr. McHenry. Yes, just one.
    Mr. Clay. OK, I will yield to Mr. McHenry.
    Mr. McHenry. Sorry, Mr. Chairman. I just wanted to get this 
on the record.
    Mr. Mesenbourg, from the Census Bureau's perspective--and I 
am sure these are questions you would like to answer--any and 
all information attained from the census forms cannot be used 
for any other person, including tax or law enforcement 
purposes, is that correct?
    Mr. Mesenbourg. That is correct.
    Mr. McHenry. OK. Many of us have received feedback from our 
constituents regarding privacy concerns, obviously, very much 
in mind today, especially. But information given by people to 
the Census Bureau is confidential by law, is that correct?
    Mr. Mesenbourg. By law, by Title 13.
    Mr. McHenry. All right. And getting people to respond is 
one of the main challenges, as you mentioned, so is there--
because people maybe have a mistrust of Government, what 
efforts are you taking to ensure that people know that any 
information given to them is kept only within the Census Bureau 
and not shared with any other Government agency, department, or 
any other individual?
    Mr. Mesenbourg. Well, that information will be on the 
report form that everybody receives but, probably more 
importantly, it is going to be a key focus of our advertising 
message and our partnership program. So it is one thing for the 
Census Bureau to tell people it is confidential. In the hard-
to-reach segments of the population, our partnership program is 
aimed to get a trusted voice in that community to tell people 
that live in that community--and our partnership specialist 
will be hired from the community that they are working in--that 
you can trust the Census Bureau that they will hold your data 
confidential.
    Mr. McHenry. Finally, if you and your staff could prepare a 
followup for this. This is too long of a question and our time 
is short. I would like to know the Census Bureau's full plan to 
minimize the undercounts and overcounts. I know you already 
have plans in place, but if we could receive that, I think that 
would be important for committee members to hear the full 
breadth and depth of our plan so we can also see ways that we 
can engage other stakeholders.
    Mr. Mesenbourg. Certainly.
    Mr. McHenry. Thank you, all.
    And thank you, Mr. Chairman. I certainly appreciate it.
    Mr. Clay. Very good. Thank you.
    The first major operation of the 2010 census, address 
canvassing begins on March 30th. There will not be any other 
opportunities to build a complete and accurate address list. 
Time is of the essence. It is critical that the Bureau work 
with GAO, MITRE, and use every resource available to get this 
right. Six major systems still need to be tested, the life-
cycle cost estimate needs to be validated, and testing must be 
prioritized.
    Let me thank all of the witnesses for coming today and 
thank the members of this committee for their singular focus 
and their commitment to seeing that the 2010 census be 
successful.
    On that note, this hearing is adjourned.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Diane E. Watson and 
additional information submitted for the hearing record 
follow:]

[GRAPHIC] [TIFF OMITTED] T0732.059

[GRAPHIC] [TIFF OMITTED] T0732.060

[GRAPHIC] [TIFF OMITTED] T0732.061

[GRAPHIC] [TIFF OMITTED] T0732.062

[GRAPHIC] [TIFF OMITTED] T0732.063

[GRAPHIC] [TIFF OMITTED] T0732.064

[GRAPHIC] [TIFF OMITTED] T0732.065

[GRAPHIC] [TIFF OMITTED] T0732.066

[GRAPHIC] [TIFF OMITTED] T0732.067

[GRAPHIC] [TIFF OMITTED] T0732.068

[GRAPHIC] [TIFF OMITTED] T0732.069

[GRAPHIC] [TIFF OMITTED] T0732.070

[GRAPHIC] [TIFF OMITTED] T0732.071

[GRAPHIC] [TIFF OMITTED] T0732.072

[GRAPHIC] [TIFF OMITTED] T0732.073

[GRAPHIC] [TIFF OMITTED] T0732.074

[GRAPHIC] [TIFF OMITTED] T0732.075

[GRAPHIC] [TIFF OMITTED] T0732.076

[GRAPHIC] [TIFF OMITTED] T0732.077

[GRAPHIC] [TIFF OMITTED] T0732.078

[GRAPHIC] [TIFF OMITTED] T0732.079

[GRAPHIC] [TIFF OMITTED] T0732.080

[GRAPHIC] [TIFF OMITTED] T0732.081

[GRAPHIC] [TIFF OMITTED] T0732.082

[GRAPHIC] [TIFF OMITTED] T0732.083

[GRAPHIC] [TIFF OMITTED] T0732.084

[GRAPHIC] [TIFF OMITTED] T0732.085

[GRAPHIC] [TIFF OMITTED] T0732.086

[GRAPHIC] [TIFF OMITTED] T0732.087

[GRAPHIC] [TIFF OMITTED] T0732.088

[GRAPHIC] [TIFF OMITTED] T0732.089

[GRAPHIC] [TIFF OMITTED] T0732.090

[GRAPHIC] [TIFF OMITTED] T0732.091

[GRAPHIC] [TIFF OMITTED] T0732.092

[GRAPHIC] [TIFF OMITTED] T0732.093

[GRAPHIC] [TIFF OMITTED] T0732.094

[GRAPHIC] [TIFF OMITTED] T0732.095

[GRAPHIC] [TIFF OMITTED] T0732.096

[GRAPHIC] [TIFF OMITTED] T0732.097

[GRAPHIC] [TIFF OMITTED] T0732.098

[GRAPHIC] [TIFF OMITTED] T0732.099

[GRAPHIC] [TIFF OMITTED] T0732.100

[GRAPHIC] [TIFF OMITTED] T0732.101

                                 <all>

</pre></body></html>
